                                                       National Railroad Passenger Corporation
                                                       Office of Inspector General
                                                       10 G Street, N.E.
                                                       Washington, D.C. 20002




      VIOLATION OF CORPORATE POLICIES FOR INDEPENDENT CONTRACTORS
                              February 6, 2013
                             CASE # IL-12-0095


Amtrak paid over $141,000 to a retired Amtrak claims representative to do work for the Claims
Department. A manager in the Amtrak Claims and Tort Litigation group circumvented and
violated Amtrak policy by directing persons to facilitate this work without a contract with
Amtrak. The arrangement included the use of two Florida law firms to provide “pass-through”
billing services for the former Amtrak employee. The former employee was paid approximately
three times the hourly rate he earned when he was employed as a claims representative. A Report
of Investigation was tendered to Amtrak’s Office of General Counsel that resulted in the General
Counsel issuing a Management Restatement of Policy.
